No. 20-908
INTHE

Supreme Court of the United States
SFR INvESTMENTS POOL 1, LLC,
Petitioners,
v.
M&T BANK; FEDERAL HOME LOAN MORTGAGE CORPORATION,
Respondents.
CERTIFICATE OF COMPLIANCE
I hereby certify that I am a member in good standing of the bar of this Court and that,
pursuant to Rule 33.l(h) of the Rules of this Court, the Reply Brief of Petitioner complies with
the type-volume limitations of Rule 33.l(g). Exclusive of the exempted portions identified in
Rule 33.l(d), the brief contains 2712 words. (The undersigned is relying on the word-count
utility in Micr osoft Word 2016, the word-processing system used to prepare the brief,
consistent with Rule 33.l(d).)

Jacqueline A. Gilbert
April 6, 2021

,

